UNn'ED STATESOF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON,
D.C.20580

April 27, 2004
Kevin B. Chilson
ChilsonFuneralHome
200 FairlawnAvenueWest
P.O. Box 1097
Winsted,MN 55395
Dear Mr. Chilson:
Thank you for your recent letter to the FTC's Consumer ResponseCenter, which has
been forwarded to me for response. You enclose a General Price List ("GPL ") that Iten Funeral
Homes recently provided to a consumer. You ask the FTC's legal opinion on whether-the GPL
complies with the FTC Funeral Rule.
First, I cannot state definitively whether Iten Funeral Home violated the Funeral Rule
because that would be an impermissible legal opinion. Whether Crist has actually has violated
the Funeral Rule is a factual and legal question that only the courts can determine. However, I
can offer an informal staff opinion on the requirements of the Funeral Rule. You should note
that Ithis is the opinion of FTC staff only and is not binding on the Commission or on any
individual Commissioner. Having given those disclaimers, here is my interpretation of the
Funbral Rule requirements that are applicable to the GPL you sent.
You seemto have three primary concerns with the GPL.. First, you ask whether the
funeral home must list a charge for goods and services offered in connection with "Use of
Fun~ralHome Facilities;' and with "Transportation" (and which are Jisted in the GPL as "no
charge."). Second, you ask whether the home should have listed or itemized the prices and goods
or services included in the cost of a memorial seryice and in the cost of a funeral service for an
infant or child. Third, you ask whether the crematory charge should be listed as part of the direct
cremation charge rather than as a cashadvanceitem.
As you know, the Federal Trade Commission does not regulate the prices charged by
fun~ral providers. The purpose of the Funeral Rule is to make price information readily available
to c~nsumersto enable them to do comparative shopping for funeral goods and services. In
addition, disclosures required to appear on the general price list inform consumers that they have
the right to purchase only those goods and services that they specifically select. The Rule seeks
to promoteinfoimed decision-making so that consumers are able to make funeral arrangements
that ,are within their means. To that end, the Funeral Rule requires funeral providers to give
con$umersan accurate price list itemizing its prices for 16 specific items of funeral goods and
services. The Rule does not require that the funeral home offer all 16 of these goods and

services. If a funeral home does not offer a particular good or service, it need not list that good
or service on its GPL. In addition, the Rule does not prohibit listing other items that the home
offers, including the prices for any packagefunerals. Among the s~ified 16 items for which
prices must be listed are (1) use of facilities and staff for viewing; (2) use of facilities and staff
for funeral ceremony; (3) use of facilities and staff for memorial service; (4) use of facilities and
staff for graveside service; and ( 5) limousine. Iten' s GPL does not list prices for these five
items.

In the FTC's businesspublication"Complying with the FuneralRule," the Commission
staff statesthat a funeralhome:
cannot list any of the 16 items required to be separatelyitemized
on the GPL as "free" or "no charge." Because you recover the cost
of the free item in in your other prices on the GPL, the customer
may not have the choice of rejecting the charge. However, you can
offer items not required to be separatelyitemized on the General
Price List (such as acknowledgment cards) at "no charge," as longas your state or local laws do not prohibit this practice. (p. 27)
Thus, items on the Iten GPL that are not required to be separatelyitemized -e.g., the flower car,
pallbearer vehicle, and funeral sedan--can be listed at "no charge".if they are available at no
chargeto all consumerswho make any type of funeral arrangement with the home. However, the
home must list a specific price if the charge is available at "no charge" only to some consumers
while other consumers are charged separately,depending on the type of funeral service they buy.
In that instance, the charges become declinable fees for specific goods or services.

Iten's GPL lists "no charge"for useof the preparationroom whenthe consumerbuysthe
standardfuneralpackage.However,the FTC's "Complying with the FuneralRule" statesthat
the price for embalmingshouldincludeuseof the preparationroom. Therefore,Iten' s GPL does
not comportwith the FuneralRule with respectto that item.
The FuneralRule allows a funeral providerto useseparateprice lists for specialgroups,
suchasfuneral arrangements
for childrenandinfants. The Rule allows funeral providersto list
the differentfeesin two ways: (1) on the GPL, CasketPrice List and OuterBurial Price List,
along with the regularofferings; or (2) a separateprice list for thesearrangements.If the funeral
providerpreparesseparateprice lists, he or sheneednot give them out to anyoneexceptthose
personsinquiring abouta funeral for a child or an infant. (See"Complying with the Funeral
Rule" (p. 14»
In addition,the FuneralRule doesnot requirethe GPL to include the costof cremationin
the price for directcremation. In "Complying with the FuneralRule, the Commissionstaff
states:
The price of the actualcremationof the deceasedmayor may not
be included in yourchargefor directcremation. If you own a
crematory,it would be appropriateto include the cremationcharge
in this fee. However,if youusea crematorythat someoneelse

~

owns, you may treatthis chargeas a cashadvanceitem. In that
case,you shouldmakeclearto the customerthattherewill be an
addedchargeby the crematory.(p. 10)
I am enclosing a copy of the Commission's guide "Complying with the Funeral Rule" for
your future reference.

I hopethis informationis helpful to you.
Sincerely,

~

J ~~g.~~It,~t~j~~~~."'/

CaroleI. Danielson
SeniorInvestigatorand
FuneralRule Coordinator
Enclosure

